U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


        CENTRAL VALLEY PROJECT
           RESTORATION FUND,
         BUREAU OF RECLAMATION

             REPORT NO. 98-I-383
                MARCH 1998
!                                                                             W-IN-BOR-009-96         .


                 United States Department                       of the Interior
                                OFFICE OF INSPECTOR GJZNERAL
                                        Washington, DC. 20240


                                                                        MAR31 1998


                                      AUDIT REPORT
    Memorandum

    To:      Commissioner, Bureau of Reclamation

    From:    Robert J. Williams f&b                d!
             Acting Inspector General

    Subject: Final Audit Report on the Central Valley Project Restoration Fund,
             Bureau of Reclamation (No. 98-I-3 83)

                                     INTRODUCTION
    This report presents the results of our review of the Bureau of Reclamation’s Central Valley
    Project Restoration Fund. The Fund was established by the Central Valley Project
    Improvement Act, Title 34 of the Reclamation Projects Authorization and Adjustment Act
    (Public Law 102-575), enacted on October 30, 1992. The objective of the audit was to
    determine whether the Bureau complied with requirements of the Central Valley Project
    Improvement Act as they related to Restoration Fund assessments, collections, and
    expenditures.

    BACKGROUND

    The Central Valley Project, authorized in 1935 and located in the Central Valley of California,
    is an integrated network that includes 16 storage dams and reservoirs, 3 diversion dams, over
    600 miles of canals and aqueducts, 2 pump-generating plants, 7 hydroelectric power plants,
    and 3 fish hatcheries. It is the Bureau’s largest multipurpose water project and has been
    operated primarily to provide flood control, water for irrigation and municipal and industrial
    use, and power generation. The Project provides water, through over 250 water service
    contracts with water districts and authorities, for irrigation of about 3 million acres of
    farmland and for more than 2 million urban residents and Federal, state, and private wildlife
    refuges.

    The Central Valley Project Improvement Act significantly expanded the Secretary of the
    Interior’s authority to restore fish and wildlife and their habitats in the rivers and streams
    impacted by the Project. Specifically, the Act required the Secretary to develop and
    implement activities to protect, restore, and enhance fish and wildlife and their associated
habitats in the Central Valley and in the Trinity River Basin.’ The Act identified over
40 specific restoration activities, which included (1) nonstructural actions such as acquiring
water and land and improving habitat conditions in streams and tributaries and (2) structural
actions such as constructing a temperature control device at Shasta Dam and fish passage .
facilities at Red Bluff Diversion Dam. Specific cost-sharing requirements by the State of
California were included in 15 of the more than 40 specific restoration activities.

As specified in the Act, these restoration activities are funded by direct Federal
appropriations, cost sharing from California, and the Restoration Fund. The Restoration Fund
obtains revenues from annual charges of up to $50 million (October 1992 price levels) from
Project water and power users. However, as required by Section 3404 of the Act, full annual
charges cannot be collected from the water users until an environmental impact statement is
completed on the Project.’ Until that time, water user charges are primarily limited to
restoration payments and to surcharges on water delivered through the Project’s Friant
Division, as stipulated in Sections 3406(c)(l), 3407(c), and 3407(d) of the Act. Restoration
payments and surcharges are assessed based on the acre-feet of water delivered.

The Bureau’s Mid-Pacific Region, in Sacramento, California, is responsible for accounting
for Restoration Fund revenues and expenditures.      To account for these revenues and
expenditures, the Region used the Governmentwide Federal Financial System, which accounts
for financial statement and budget-related data Bureauwide; the Region’s Water Payment,
Delivery and Revenue Accounting System (referred to as the 705 Works System), which
serves essentially as the customer billing and accounts receivable system for the Central
Valley Project; and spreadsheet systems maintained by the Regional Office and area offices.

Since inception ofthe Restoration Fund on October 30, 1992, to June 30, 1997, the Bureau
collected about $129 million from water and power users. Restoration Fund collections
totaled about $33.6 million for fiscal year 1995, $46.8 million for fiscal year 1996, and
$18.7 million for fiscal year 1997 (through June 30, 1997). Since passage of the Act on
October 30, 1992, through June 30, 1997, expenditures for restoration activities totaled about
!§175 million, of which $87 million was provided by the Restoration Fund and $88 million by
direct Federal appropriations. Restoration Fund expenditures totaled $24.5 million for fiscal
year 1995, $30 million for fiscal year 1996, and $23 million for fiscal year 1997 (through
June 30, 1997).



‘The Trinity River Basin was included because part of the Central Valley Project’s water is released to the Trinity
River for purposes of fishery restoration, propagation, and maintenance.

2Section 3409 of the Act requires that the Secretary, not later than 3 years after enactment or by October 30,1995,
“prepare and complete a programmatic environmental impact statement pursuant to the National Environmental
Policy Act,” which analyzes the direct and indirect impacts and benefits of implementing the Act, including the
potential renewal of all existing Project water contracts. Because of the magnitude and complexity of the work,
the programmatic statement has not been completed. The draft programmatic statement was released in November
1997 for public review and comment The estimated completion date of the tinal programmatic statement is April
1998. Full annual charges under the Act are derived from collections of water contracts’ prerenewal charges
(Section 3404(c)(3)), tiered water rates (Section 3405(d)), transferred water rates (Section 3405(a)(l)(B)), Friant
Division surcharges (Section 3406(c)(l)), municipal and industrial surcharges (Section 3407(d)(2)(A)), and
restoration payments by water and power beneficiaries (Sections 3407(c) and (d)).

                                                         2
In accordance with Section 3406(h) of the Act, the Bureau of Reclamation and the U.S. Fish
and Wildlife Service, in June 1994, entered into a cost-sharing agreement with the State of
California in which California is required to pay up to $50 million toward restoration
activities contingent on available State funding and legislative authority. The agreement
requires that individual task orders be executed for each restoration activity. Since June
1994, the State of California has signed one cost-sharing task order agreement to contribute
$1.5 million for the restoration-related Georgiana Slough Control Barrier activity.

On November 5, 1996, California voters passed Proposition 204, also known as the Safe,
Clean Reliable Water Supply Act, which funds numerous environmental activities within the
State, including restoration of the Bay-Delta (San Francisco Bay/Sacramento - San Joaquin
Delta in California), levee rehabilitation, and assistance to California in meeting most of its
cost-sharing commitment under the Act. The proposition provides for issuing bonds totaling
$995 million. Under this proposition, $93 million of the $995 million of bond sales was to
be used to meet California’s cost-sharing requirements under Section 3406 of the Central
Valley Project Improvement Act. Since passage of the proposition, California has sold bonds
totaling about $64.4 million to assist California in meeting a portion of its cost-sharing
requirements under the Act. Regional officials told us that since June 1997, the Bureau’s
Mid-Pacific Region and the Service have been negotiating with California to finalize four task
orders totaling about $30 million to fund restoration activities under the Act. Regional
officials also stated that for fiscal year 1998, the Mid-Pacific Region and the Service also plan
to negotiate additional task orders with California totaling about $30.4 million to fund
additional restoration activities under the Act.

SCOPE OF AUDIT
We conducted our audit at the Bureau’s Mid-Pacific Regional Office and at selected area
offices within the Region (see Appendix 1). To accomplish our objective, we reviewed and
analyzed documents, financial records, and activities of the Restoration Fund that occurred
from October 30, 1992, through June 30, 1996. We also performed tests of Restoration Fund
assessments, collections, and expenditures for fiscal years 1995 and 1996 (through June 30,
 1996). These tests included verifying the accuracy of assessments and collections based on
the delivery of Project water for fiscal year 1995; confirming the validity of accounts
receivable balances of non-Federal contractors as of March 3 1, 1996; and reviewing the
propriety of selected expenditures. We also interviewed Bureau and Service program and
administrative personnel and an assistant regional solicitor from the Office of the Solicitor’s
Pacific Southwest Regional Offtce, in Sacramento, concerning programmatic and legislative
requirements of the Act. In addition, in July 1997, we discussed our preliminary findings with
officials and updated the Fund’s revenue and expenditures to reflect balances as of June 30,
 1997.

Our audit was made in accordance with the “Government Auditing Standards,” issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that were considered necessary under the circumstances. As part
of our audit, we reviewed the Department of the Interior’s Annual Statement and Report for
fiscal year 1995, which is required by the Federal Managers’ Financial Integrity Act, and the
Departmental Report on Accountability for fiscal year 1996, which contains information


                                                3
required by the Act, and determined that none of the Department’s reported weaknesses were
related to the objective of this audit. We also evaluated the Mid-Pacific Region’s system of
internal controls related to Restoration Fund assessments, collections, and expenditures to the
extent we considered necessary. The internal control weaknesses identified are discussed in
the Results of Audit section of this report. Our recommendations, if implemented, should
improve the internal controls.

PRIOR AUDIT COVERAGE
Neither the Office of Inspector General nor the General Accounting Office has issued any
reports on the Restoration Fund. However, in July 1995, the Office of Inspector General
issued the advisory letter “Anadromous Fish Restoration Activities, Central Valley Project”
(No. 95-AL-5), which related to restoration activities. The letter concluded that restoration
funds were spent for approved purposes but noted that (1) the Mid-Pacific Region had not
developed formal&d cost allocation and repayment procedures for reimbursable restoration
costs, (2) the State of California had not developed a revenue-collection mechanism to meet
its cost-sharing commitment under the Central Valley Project Improvement Act, and (3) the
Mid-Pacific Region had not developed procedures for applying reimbursement “credits.”
During our current audit, we found that the Mid-Pacific Region was taking actions to address
the concerns noted.

                              RESULTS OF AUDIT
Overall, we found that the Bureau of Reclamation was in compliance with the requirements
of the Central Valley Project Improvement Act as they pertained to Restoration Fund
assessments, collections, and expenditures. In that regard, the Bureau had issued interim
guidelines for assessing, collecting, and crediting payments from Central Valley Project water
and power contractors and had involved stakeholder work groups in establishing priorities
for uses of the Restoration Fund. In addition, in August 1996, Regional Office officials
established a Restoration Fund Team to centralize financial activities associated with the
Central Valley Project Improvement Act and to function as a focal point for the Region’s
internal and external customers by providing assessment, collection, and expenditure data as
the data pertained to the financial management of the Act and the Restoration Fund.
However, we concluded that the Regional Office could improve its accounting for
Restoration Fund activities by integrating the automated systems used to account for
assessments and payments for water deliveries. The Regional Office also had not annually
accounted for the costs incurred under the agreement with the State of California to identify
the State’s share of costs of restoration activities or negotiated additional task orders for
repayment of California’s share of ongoing restoration activities (which we estimated to be
over $3 1.6 million). In addition, we found that the Bureau had not submitted to the Congress
the following: (1) the program report for fiscal year 1995 and the program and financial
reports for fiscal year 1996, as required by the Act, and (2) the special reports for fiscal
year 1996.




                                               4
Accounting Systems
The Mid-Pacific Regional Ofice used three independent systems to account for water
deliveries, assessments, and payments. The General Accounting Office Policy and Procedures
Manual for Guidance of Federal Agencies (Title 2) and the Treasury Accounting Manual
require that accounting data be timely to be meaningful in managing Federal programs. Office
of Management and Budget Circular A- 127, “Financial Management Systems,” also requires
that financial management systems process and record financial transactions effectively and
efficiently, including providing complete, timely, and reliable information to Federal decision
makers and the public. In addition, Executive Order No. 130 11, dated July 17, 1996, which
addresses Federal information technology, provides Federal agencies with the “clear authority
and responsibility to make measurable improvements in mission performance and service
delivery to the public” through implementation of integrated information systems. Instead of
an integrated system, the Region tracked water deliveries through the Works System;
recorded payment information in the Federal Financial System; and recorded combined
information on water deliveries, assessments, and payments in a spreadsheet-based system
maintained by the Regional OfIlce. The maintenance of three separate systems resulted in the
inefficient use of Regional Office resources (personnel and funds) and delayed the posting of
payments in the system. In turn, the delayed posting of payments caused the receivables
account identified in the Federal Financial System to be overstated.

The Federal Financial System was designed to account for revenues and expenditures on a
Bureauwide basis to produce annual consolidated financial statements that are required by the
Chief Financial Officers Act of 1990. Although the system records revenues, it does not have
an automated assessment and collection component to establish accounts receivable for the
Restoration Fund. As a result, receivables are established in the Federal Financial System
based on calculations made by regional finance personnel through their spreadsheet system.

The Works System was designed to record, accumulate, and report on Project water
deliveries, associated water charges, and the advance payment balances for the Project’s
water service contractors. The Works System was intended to provide historical water
delivery and financial data such as monthly water contractor statements (Water Delivery
Charges reports3) and the monthly revenue-earned statements (Water Delivery Revenue
reports4). However, the Works System had not been modified to account for additional
legislative requirements, such as the restoration water charges imposed by the Central Valley
Project Improvement Act, since the system was developed in the 1970s and 1980s. A
June 1995 report prepared by an independent accountant on the Project’s financial systems



‘Water Delivery Charges reports were designed to reflect the current status of deliveries by type of water (for
example, irrigation or municipal and industrial), the costs charged to the contractor for the water, the balance of
the contractor’s allotment of water, and the status of the cash advance account against which the charges were
made.

4Water Delivery Revenue reports provide revenue information for contract water deliveries and water transfers
based on water-delivery requirements of the Reclamation Reform Act of 1982 and historical water delivery and
revenue data that can be used in the Central Valley Project’s rate-setting and operation and maintenance deficit-
determination processes.

                                                         5
and rate-setting practices substantiated these and other deficiencies in the Works System. The
report was requested by the Central Valley Project Water Association, an organization of
Project water contractors. The report stated that the Works System “has not kept pace with
the changing accounting environment and has not been properly maintained.” The report also
stated that “neither the Bureau nor the contractors placed a very high degree of reliance upon
payment and advance account information obtained from the system” because information
was not timely and reliable.

The Mid-Pacific Region maintained a comprehensive spreadsheet system to assess and collect
Restoration Fund revenues because neither the Federal Financial System nor the Works
System adequately accounted for and reported water contractor payments. To assess charges
for restoration activities, Regional personnel manually entered the contractor water deliveries
recorded in the Works System into the Region’s spreadsheet system, which automatically
calculated the payments due. On a monthly basis, Regional personnel manually reconciled
the payments due with the revenues from restoration payments from the water contractors
recorded in the Federal Financial System. If payment was not received from a water
contractor within the 30day payment period, personnel sent a bill to the water contractor and
identified the outstanding amount and manually established the accounts receivable in the
Federal Financial System. We reviewed the $784,000 non-Federal accounts receivable
balance as of March 3 1,1996, in the Federal Financial System and found that the amount was
overstated by 25 percent. Of the 72 outstanding receivables that constituted the $784,000,
we found that 37 receivables, totaling about $200,000, were not valid because they either
were paid or were not required to be paid. Delays in recording and reconciling water
contractor payments in the Federal Financial System, the Works System, and the Regional
spreadsheet system caused receivables to be overstated because invalid receivables were kept
in the account.

We also found that the process used by the Regional Office to record water contractor
payments was not timely. According to a Regional official, water contractors send their
payments to a bank lockbox in San Francisco, California, for deposit. Each day, the Regional
Office receives a report firornthe bank ident@ing the checks received. The bank mails copies
of the checks and supporting payment documents to the Regional Office. Water contractors
can also take or send their payments to the Regional Office or to the nearest Regional field
office in Caliiornia. The field offices send the payments to the lockbox for deposit and the
payment information to the Regional Office’s accounts receivable personnel for recording into
the Federal Financial System. Because there is no automated process to update the
Restoration Fund account in the Federal Financial System, it is necessary to use the separate
Regional system to calculate Restoration Fund revenues in order to record Fund revenues in
the Federal Financial System.

We also found that the Northern California Area Office and the Willows Construction Office
had each developed systems which produced monthly water contractor statements that
showed water deliveries, assessments, payments, and account balances. At both offices,
personnel manually entered contractor water delivery and payment information into
spreadsheet systems to account for the assessment and collection of Restoration Fund
revenues. Both offices also requested that water contractors send or bring payments to the
offices rather than send the payments to the bank so that they would have more timely and


                                               6
complete payment information. The area offices forwarded the payments either to the bank
or to the Regional Office for recording in the accounting systems. Officials at these offices
told us that they had developed the separate systems because of the unreliable data in the
Works System and because of the l-month delay that it took for the Regional Office to
completely record water contractor payments and to notify area and field offices that payment
had been made.

A Regional O&e official acknowledged the lack of an integrated accounting system, stating
that with the present system, Regional Office employees who should be performing analytical
and review functions were used primarily as data entry clerks. We believe that an integrated
accounting system which produces reliable monthly statements would improve the assessment
and collection processes, provide better service to meet the water contractors’ needs, and
result in the more efficient use of Regional Office employees. According to Regional Office
officials, the Region was implementing an integrated accounting system, which is referred to
as the Reclamation Accounting Information Network (RAIN System). This system will
(1) replace the Works System, including the function of accounting for additional legislative
requirements that are not part of the Works System, such as the restoration water charges
imposed by the Central Valley Project Improvement Act, and (2) will be linked with the
Federal Financial System. If implemented, the RAIN System should eliminate the need for
multiple data entries and additional subsystems and better service the water contractors’ needs
by providing timely monthly statements. A Regional Office official said that the Region
planned to have the Reclamation Accounting Information Network fully implemented by
October 1, 1998.

Cost Sharing
As of June 1997, the State of California had not contributed $3 1.6 million of its $33.1 million
share of restoration activity costs. The Central Valley Project Improvement Act identifies
15 restoration activities that stipulate cost sharing by California.              For example,
Section 3406(b)(6) states that the Secretary of the Interior is directed and authorized to:

          . . install and operate a structural temperature control device at Shasta Dam
        and develop and implement modifications in CVP [Central Valley Project]
        operations as needed to assist in the Secretary’s efforts to control water
        temperatures in the upper Sacramento River in order to protect anadromous
        fish in the upper Sacramento River. Costs associated with planning and
        construction of the structural temperature control device shall be reimbursed
        in accordance with the following formula: 37.5 percent shall be reimbursed
        as main project features, 37.5 percent shall be considered a nonreimbursable
        Federal expenditure, and 25 percent shall be paid by the State of California.

California’s 25 percent share of the $77 million expended on the Shasta Dam Temperature
Control Device, which was completed in May 1997, is approximately $19.2 million.

Expenditures on all restoration activities totaled about $175.8 million, which consisted of
payments from the Restoration Fund of approximately $87.3 million and Federal
appropriations of about $88.5 million. Of the $175.8 million, expenditures totaling


                                               7
$124 million were for 13 of the 15 sections of the Act, which required cost sharing from
California (there were no reported expenditures on the other 2 restoration activities). Based
on the cost-sharing percentages identified in the Act, California’s share of the $124 million
is approximately $33.1 million (see Appendix 2).

The Bureau and the U.S. Fish and Wildlife Service successfully negotiated a cost-sharing
agreement with California on June 27, 1994, under which California is required to pay up to
$50 million toward restoration activities. However, the agreement is contingent on available
State funding and legislative authority and included additional provisions as follows:

       One party may fund all, none, or any percentage of the cost of an individual
       restoration action, as long as the total amount expended by each party equals
       that party’s overall cost allocation under Section 3406 of the Act.

        Individual task orders will subsequently be executed pursuant to this
        Agreement for each restoration action or element thereof and shall be made
        a part of this Agreement.

        The parties shah make an annual accounting, on a fiscal year basis, for their
        costs incurred under this agreement. The accounting shall include the dollar
        value of any in-lieu services as well as direct expenditure of funds. Each party
        shall submit its accounting to the other party by February 1 of each year.

        The parties shall jointly develop a work plan which includes a budget and
        schedule for carrying out the restoration actions. . . . The work plan will be
        used as the basis for negotiating task orders for the restoration actions, or
        elements thereof, and shall be updated at least annually.

As of June 1997, the Mid-Pacific Region and the Service and California had signed only one
task order for $1.5 million for the Georgianna Slough Control Acoustic Fish Repulsion
Barrier Evaluation. The Regional Office also had not provided California with a formal
accounting of expenditures for restoration activities requiring State cost sharing. Regional
Offrce officials said that they had not performed an annual accounting of expenditures for
restoration activities requiring California cost sharing because California had not identified
sources of funds but that they were not concerned as long as California eventually met its
cost-sharing obligations. However, by not executing task orders and obtaining California’s
share of the costs in conjunction with restoration activity construction, the Federal
Government funds a disproportionate share of activity financing costs. Therefore, we believe
that the Bureau should prepare and submit to California the annual cost summaries that
identify the cumulative cost-sharing obligation and expenditures for restoration activities and
negotiate task orders for ongoing and completed restoration activities. Subsequent to our
review (since June 1997) the Mid-Pacific Region and the Service have been negotiating with
California to finalize four task orders totaling about $30 million to fund restoration activities
under the Act. For fiscal year 1998, the Mid-Pacific Region and the Service also plan to
negotiate additional task orders totaling about $30.4 million to fund restoration activities
under the Act.



                                                8
Reporting
The Bureau had not submitted all of the annual program and financial reports required by the
Central Valley Project Improvement Act and the special reports requested by the Committees
on Appropriations, U.S. Senate and U.S. House of Representatives.

         Annual Reports. Section 3407(f) of the Act required the Secretary of the Interior
to submit an annual financial report’ that described “all receipts to and uses made of monies
within the Restoration Fund” for the prior fiscal year, including projections of receipts and
uses of the Restoration Fund for the next fiscal year. Section 3408(f) of the Act required the
Secretary to submit a program report6 that described significant actions taken to achieve “the
intent, purposes and provisions of this title [Title 341,” including “recommendations for
authorizing legislation or other measures” needed to implement the Act. These reports were
to be submitted not later than September 30 of each year.

We found that the Bureau had submitted only the financial report for September 30, 1995.
The 1996 financial report had been drafted and the 1995 program report had been updated
to include 1996 program information.’ Although both reports were forwarded by the
Commissioner’s Office to the Assistant Secretary for Water and Science and the Assistant
Secretary for Fish and Wildlife and Parks for review, they had not been approved for issuance
and submittal to the Congress as of December 1997. A Regional Office official said that
“numerous and diverse reviews throughout the entire report writing process” delayed the
timely preparation and submission of the reports. The official further stated that planned
changes in the review process should decrease the preparation and review time for the annual
reports in the future. However, we did not obtain any details on the planned changes.

        Special Reports. In hearings held for fiscal year 1996 by the House and Senate
Committees on Appropriations, the Committees directed that the Bureau provide, by
November 15, 1995, a report on the extent to which the State of California had met its
cost-sharing obligations under the Act and that the Secretary provide, by February 1996, a
report “display[ing] priorities and activities for a 5-year period beginning with fiscal year
1997, associated with the restoration requirements and goals of the CVPIA [Central Valley
Project Improvement Act].” We found that as of December 1997, the Bureau had not
submitted these reports. The Bureau Special Projects Officer attributed the delay of the
cost-sharing and S-year priority reports to the same lengthy review process required for the




‘The financial report is to be provided to the Senate Committee on Energy and Natural Resources and the
Committee on Appropriations and the House of Representatives Committee on Interior and Insular Affairs, the
Committee on Merchant Marine and Fisheries, and the Committee on Appropriations.

The program report is to be provided to the Senate Committee on Energy and Natural Resotices and the House
of Representatives Committee on Interior and Insular Affairs and the Committee on Merchant Marine and
Fisheries.

‘The Bureau included the 1995 and 1996 program information with the special cost-sharing reports required by
the House and Senate Committees on Appropriations.

                                                     9
annual reports. As of December 1997, the Secretary’s report’ had been drafted and included
public comments, but it was at the U.S. Fish and Wildlife Service for completion,

Recommendations
We recommend that the Commissioner, Bureau of Reclamation, direct the Regional Director,
Mid-Pacific Region, to:

    1. Integrate the Regional Office’s and area offices’ accounting systems with the Federal
Financial System to provide timely and reliable water delivery and payment information to the
Regional Office and water contractors.

    2. Provide, to the State of California, a formal annual cost summary of restoration
activities requiring cost sharing by the State, as required by the cost-sharing agreement. The
cost summary should include cumulative expenditures for restoration activities that have
occurred since enactment of the Central Valley Project Improvement Act and be used as the
basis for negotiating additional task orders as appropriate.

We recommend that the Commissioner, Bureau of Reclamation:

    3. Ensure that the required program report for fiscal year 1995 and the required
program, financial, and special reports for fiscal year 1996 and future reports are submitted
in a timely manner.

Bureau of Reclamation Response and Office of Inspector General Reply

The March 3 1, 1998, response (Appendix 3) from the Commissioner, Bureau of Reclamation,
agreed with the three recommendations.           Based on the response, we consider
Recommendation 2 resolved and implemented and Recommendations 1 and 3 resolved but
not implemented. Accordingly, Recommendations 1 and 3 will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of implementation.

Since the report’s recommendations are considered resolved, no further response to the Office
of Inspector General is required (see Appendix 4).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the cooperation of Bureau personnel in the conduct of our audit.




‘The Secretary’s report includes the U.S. Fish and Wildlife Service’s current funding priorities for Restoration
Funds and the anticipated biological benefit of each recommended funding action, as requested in the House’s
Energy and Water Development Report No. 103-533.

                                                       10
                                                                        APPENDIX 1



                                    OFFICES VISITED


                 OFFICE                                      LOCATION

Mid-Pacific Region                             Sacramento, California

    Northern California Area Office            Redding, California

    South Central Area Offke                   Fresno, California

    Willows Construction Office                Willows, California

Office of the Solicitor’s Pacific
 Southwest Regional Offke                      Sacramento, California




                                          11
                                                                                                                                              APPENDIX 2
                                                                                                                                                Page 1 of 2


                      RESTORATION ACTIVITY EXPENDITURES AND
                  STATE OF CALIFORNIA COST-SHARING REQUIREMENTS
                        FROM OCTOBER 30,1992, TO JUNE 30,1997

                                                                                                                                       State Cost-Sharing
                                                                         Expenditures by                                                Requirement by
                                                                         Funding    Sources                                                  Activitv
 P.L. 102-575                                                       Restoration       Federal                   Expenditure
    Section                   Restoration Activity                     Fund        Appropriation                   Total’           Percent        Amount2
3406 @> (1)           Anadromous Fish Program
                       and other Central Valley
                       Project Impacts                               $7,013,089                                   $7,013,089
3406 @>(2)            Dedicated Project Yield                          2,680,670                                    2,680,670
3406 (b> (3)           Water Acquisition                             11,905,482             $1,516,835            13,422,317
3406 @) (4)’           Tracy Fish Facility Improv.1
                        Evaluation                                                0                      0                      0     25                        0
3406 (b) (5)’          Contra Costa Canal Pumping                                               3 10,005              3 10,005’       2s               $77,501
3406 (b) (6)3          Shasta Temperature Control
                        Device                                       34,293,988             42,442,806            76,736,794’         25           19,184,199
3406 @>(9)            Flow Fluctuation Study                             170,632                  48,313              218,945
3406 (b) (10)’        Fish Passage Program                               679,184              1,616,OSO            2,295,234’         2s               573,809
                       Demonstration Pumping
                        Plant Evaluation                               1,104,066              2,879,599            3,983,665’         25               995,916
                       Demonstration Pumping Plant                                          20,472,555            20,472,555’         25             5,118,139
3406 (b) (11)          Coleman National Fish
                        Hatchery                                       4,650,575                                    4,650,575
                       Keswick Fish Trap
                        Modification                                       16,359             1,262,346             1,278,705
3406 (b) (12)3         Clear Creek Restoration                           273,876                   7,008              280,884’        SO               140,442
3406 (b) (13)’         Restore Spawning Gravel                             75,822                                      75,822’        25                 18,956
3406 (I) (14)3         Delta Cross Channel Structure                              0                      0                      0     25                        0
                       Georgiana Slough Control
                        Structure                                                               950,000               950,ooo’        25               237,500
3406 (b) (1S)3         Old River Barrier                                          0                      0                      0     25                        0
                       South Delta Barrier                                                      230,766               230,766’        25                 57,692
3406 (b) ( 16)3        CVP AssessmenWMonitoring
                        Program                                        1,497,980                                    1,497,980’        25               374,495




‘Expenditure totals for restoration activities were provided by the Mid-Pacific Region.

Wis         c&-sharing amount is computed by multiplying the restoration activity expenditures to date by California’s cost-sharing percentage provided for in the
ACL

‘Fii    sections of Public Law 102-575 identified restoration activities that required cost sharing by the State of Caliiomia

‘Expenditures of approximately $124 million were made under 13 ofthe 15 sections of Public Law 102-575 that required cost &wing by the Stata of California




                                                                                 12
                                                                                                                                                 APPENDIX 2
                                                                                                                                                   Page 2 of 2


                                                                                                                                           State Cost-Sharing
                                                                          Expenditures by                                                   Requirement by
                                                                          Funding Sources                                                        Activity
 P.L. 102-575                                                        Restoration       Federal                   Expenditure
    section                   Restoration Activim                       Fund        Apnropriation                   Total’             Percent         Amount2
3406(b)(17)'           Anderson-Cottonwood
                        Lrrigation District                                77,446                                       77,446'           so                 38,723
3406 (l1)(18)~         Ecosystem and Water
                        Modeling                                                   0                        0                   0         so                       0
3406 (b)(20)3          Hamilton City Pumping
                        Plant-Glenn Colusa
                        Irrigation District                                                   4584,126              4,584,126"            2s           1,146,032
3406 (b)(21)3          Anadromous Fish Screen
                        Program                                           689,586             7,304,7 10            7,994,296’            50          3,997,148
3406(b)(22)            Agriculture Waterfowl
                        Incentive Program                                  76,370                                       76,370
3406(c)(l)             San Joaquin River Basin
                        Resource Management
                        Initiative                                     1,571,830                895,536             2,467,366
3406(c)(2)             American RiverIFolsom
                        South Conjunction Use
                       Optimal Study                                                            65 1,686              651,686
3406 (4 (1).           San Joaquin Basin Action
  m & (3                Plan                                           3,081,479                311,302             3,392,781
3406 (d) (I-4)’        Refuge Water Supply                             2,542,216                  52,988            2,595,204’            2s             648,801
3406 (d) (5)           Refuge Wheeling Costs                           s,551,171                                    5,551,171
3406 (d) (6)           Private Wetlands/Joint
                        Venture                                        1,366,8SO                                    1,366,8SO
3406(e)                CvPlA supporting
                        Investigations                                    653,655                                     653,655
3406(f)                Project Fisheries Impact                        1,416,341                                    1,416,341
3406(g)'               Ecosystem/Water Operations
                        Models                                            995,332             1,031,41s            2,026,747'             2s             506,687
3408Q                  Land Retirement                                 3,107,068              1,404,756             4,s 11,824
3408 (i)               Water Conservation                                  SO,834               465,119               515,953
3408(j)                Water Augmentation                              1.788.305                                   1.788.305
                           Totals                                                         %88.437.92l           %175.768JZ                         $33,116,040

3406@)(14)             Georgiana Slough Control Structures
                        Task Order Agreement                                                                                                         (1.513.426)’

                         Total State’s Cost-Sharing Obligation




‘CaKfomia has not paid any of its cast-sharing obligation under the restoration activities requiring cost sharing undo the Act; however, it did sige the iirst
cost-sharing task order agreement to contribute Sl,S 13,426 of in-lieu services for the Georgiana Slough Control Acoustic Fish Repulsion Bank EvahmtA




                                                                                 13
                                                                                          APPENDIX 3
                      United States Department                  of the Interior           Pagel of 2
                                       BUREAU   OF RECLAMATION
                                        WASHINGTON,     D.C.   20240


 IN REPLY
REFER TO:
                                                                       MAR3 1 1998
   D-501 0
   ADM-8.00


                                          MEMORANDUM

   To:            Office of Inspector General


   From:          Eluid L. Martinez
                  Commissioner

   Subject:                                                              und, Bureau of
                   Reclamation (Assignment No. W-IN-BOR-009-96)

   The Bureau of Reclamation (Reclamation) offers the following comments in response to the
   recommendations in the subject report:

   We recommend that the Commissioner, Bureau of Reclamation, direct the Regional
   Director, Mid-Pacific Region to:



   Integrate the Regional Office’s and area offices’ accounting systems with the Federal
   Financial System to provide timely and reliable delivery and payment information to the
   Regional Office and water contractors.



            Concur. As cited by the report, the Mid-Pacific Region is in the process of
            implementing an integrated water and revenue accounting system, the Reclamation
            Accounting Information Network (RAIN System). When fully implemented, the RAIN
            System will eliminate the need for multiple data entries and additional subsystems
            and better service the water contractors’ needs by providing timely monthly
            statements.

            The RAIN System will be pilot tested concurrently with the region’s 705 Works
            Systern to ensure the reliability of the RAIN data. This involves on-line use by
            20 region users, including area office staff and various water authorities.
            Implementation of the RAIN System will replace the region’s 705 System and local
            record keeping.

            The responsible official is the Chief, Ratesetting and Economics Services, Business
            Resources Center, Mid-Pacific Regional Office. The estimated target date for
            integrating the accounting systems with the Federal Financial System is October 1,
            1998.
                                                   14
                                                                                        APPENDIX 3
                                                                                        Page 2 of 2


Recommendation

Provide, to the State of California, a formal annual cost summary of restoration activities
requiring cost-sharing by the State, as required by the cost-sharing agreement. The cost
summary should include cumulative expenditures for restoration activities that have
occurred since enactment of the Central Valley Project Improvement Act and be used as
the basis for negotiating additional task orders as appropriate.



       Complied. The State of California was provided with a formal annual cost summary
       of restoration activities in September 1997. Reclamation will continue to provide cost
       summary reports to the State on an annual basis and periodically throughout the
       year as conditions warrant.

We recommend that the Commissioner, Bureau of Reclamation:             .



Ensure that the required program report for fiscal year 1995 and the required program
financial, and special reports for fiscal year 1996 and future reports are submitted in a timely
manner.



       Concur. Reclamation acknowledges that the reports need to be submitted in a more
       timely manner. The annual reports require coordination between Reclamation and
       the Fish and Wildlife Service from the regional levels up through the Department.
       Since this is a relatively new requirement, the review process has experienced
       extensive delays; however, as stated in the report, Reclamation is working with the
       Fish and Wildlife Service to improve the review process.

       The fiscal year 1995 program report was updated to include 1996 information and
       was re-submitted to the Department in October 1996. The special reports on
       priorities and activities for a 5-year period have been redrafted at the regional level to
       include the integration and coordination of the Bay-Delta process and to
       acknowledge the State of California contribution in support of the Central Valley
       Project Improvement Act.

       The estimated target date for submission of the special reports is June 30, 1998.
       The responsible official is the Mid-Pacific Region Special Projects Officer.

If you have any questions or require additional information, please contact Luis Maez at
(303) 4452793.




cc:    Assistant Secretary - Water and Science, Attention: Laura Brown
                                             15
                                                                      APPENDIX 4



           STATUS OF AUDIT REPORT RECOMMENDATIONS



    Finding/
Recommendation
   Reference           Status                        Action Required
     1 and 3      Resolved; not    No fkther response to the Office of Inspector
                  implemented.     General is required. The recommendations will be
                                   referred to the Assistant Secretary for Policy,
                                   Management and Budget for tracking of
                                   implementation.

       2          Implemented.     No fkther action is required.




                                  16
                 ILLEGAL OR WASTEFUL ACTMTIES
                     SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents      to:                                Calling:



                     Within the Continental United States

U.S. Department    of the Interior                          Our 24-hour
Office of Inspector General                                 Telephone HOTLINE
1849 C Street, N.W.                                         l-800-424-5081 or
Mail Stop 5341                                              (202) 208-5300
Washington, D.C. 20240


                                                            TDD for hearing impaired
                                                            (202) 208-2420 or
                                                            l-800-354-0996


                     Outside the Continental United States


                                      Caribbean RePion

U.S. Department    of the Interior                          (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                     North Pacific Retion

U.S. Department    of the Interior                          (700) 550-7428 or
Office of Inspector General                                 COMM 9-01 l-671-472-7279
North Pacific Region
238 Archbishop F.C. Flares Street
Suite 807, PDN Building
Agana, Guam 96910
Toii Free Numbers:
 l-800-424-5081
 IDD l-800-354-0996

FTSKommdrcial   Numbers:
 (202) 208-5300
 TDD (202) 208-2420

 HOTLINE
1849 C S&e& N.W.
Mail Stop 5341
Washington. D.C. 20240
